W A I V E R
SUPREME COURT OF THE UNITED STATES
No.

20-7527

Kimberly Johnston

Mark J. McGinnis, et al.

(Petitioner)

(Respondent)

V.

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
I am filing this waiver on behalf of all respondents.
I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):
Mark J. McGinnis

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).
Signature:

Gabe Johnson-Karp

Date:

4/12/21

Digitally signed by Gabe Johnson-Karp
Date: 2021.04.12 13:39:51 -05'00'

(Type or print) Name Gabe Johnson-Karp
Mr.

Ms.

Mrs.

Firm

Wisconsin Department of Justice

Address

17 West Main Street

City & State

Madison

Phone

(608) 267-8904

Miss

Zip WI
Email

johnsonkarpg@doj.state.wi.us

A copy of this form must be sent to petitioner’s counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

cc:

Kimberly Johnston
230 West High Street
Seymour, WI 54165

